<html>
<title> - STRATEGIC IMPLICATIONS OF PAKISTAN AND THE REGION</title>
<body><pre>[Senate Hearing 112-69]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-69

           STRATEGIC IMPLICATIONS OF PAKISTAN AND THE REGION

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



         Available via the World Wide Web: http://www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
67-891 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        








                            C O N T E N T S

                              ----------                              
                                                                   Page

Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4
Jones, Gen. James L., USMC (Ret.), former National Security 
  Advisor, McLean, VA............................................     6

                                 (iii)

  

 
                       STRATEGIC IMPLICATIONS OF
                        PAKISTAN AND THE REGION

                              ----------                              


                         Tuesday, May 17, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:38 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Cardin, Webb, Coons, 
Durbin, Udall, Lugar, Corker, Risch, Rubio, DeMint, Isakson, 
and Lee.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. This hearing will come to order.
    Thank you very much for coming this morning.
    Today, is the fourth of a series of hearings on Afghanistan 
and Pakistan. And having just returned from the region, I will 
simply convey that at every stop and in every conversation I 
had, everybody had a sense of how critical this moment is for 
our strategies in the region, and in Afghanistan and in 
Pakistan.
    Some people have reached a level of impatience about where 
we are and where we're going. But it's clear to me that we need 
to be very careful and thoughtful, so that we get the policy 
right, and we do not lose the progress that has been made. It 
is also clear that we face a very real, complicated struggle of 
long duration between these countries.
    But we do have a vital national security interest in that 
region. And with close to 100,000 of our own troops, and 1,000 
civilians who are sacrificing in many different ways, every 
day, to help build a better future and protect American 
interests, we owe it to them to develop a roadmap that allows 
us to responsibly transition to Afghan control and to advance 
regional stability.
    Members on both sides of the aisle have appropriately been 
asking tough questions and examining every assumption that 
guides our strategy in the region. And I want to thank my 
colleagues for their thoughtful analysis and deliberation, 
which is a service to the American people. And I believe this 
committee can provide a continuing service to the American 
people as we put the facts out on the table, listen to experts 
like General Jones and others who come before us, and devise a 
strategy that does justice to the quality of the sacrifice and 
contribution of the folks who are over there 24/7/365. Some of 
them are on third or fourth tours, and occasionally even on a 
fifth tour in terms of Iraq and Afghanistan combined.
    We're very fortunate to have General Jones here with us 
today to help us think about this. I think he is one of 
America's most distinguished, experienced, and capable public 
servants. I'm very pleased to call him a friend, and I'm glad 
he was able to come up here today to share his wisdom and 
insights with us.
    Before we hear from General Jones, let me provide a short 
summary of what I perceived in the last few days, particularly, 
of the results of my conversations in Pakistan.
    In Afghanistan, I visited Khost, which is RC East, right on 
the border of Pakistan, and a hot spot in terms of Haqqani 
Network activities coming out of the sanctuaries. And I spoke 
with our intelligence community personnel and others there 
about the impact of those sanctuaries and their analysis of the 
war.
    I then flew north to Mazar-e-Sharif, where the unfortunate 
incident of the Blue Mosque and the U.N. took place not so long 
ago, in order to understand how the groups in the North--mostly 
Tajik in that place, but also Uzbeks, Hazaras, and Uzaras, and 
others view the prospects of reconciliation.
    And in Kabul, in addition to meetings with our Embassy 
officials and with the U.N., I met with the Afghan Cabinet 
ministers, provincial governors, civil society leaders, and 
with President Karzai, and discussed the upcoming transition 
and the steps that we all need to take to ensure success.
    And, finally, I had the distinct pleasure and honor of 
meeting with our men and women in uniform, including 500 
National Guard troops from Massachusetts who are serving at 
Camp Phoenix, just on the outskirts of Kabul.
    Let me share this thought with my colleagues--I know all of 
us feel this every time we go over there, but I just cannot 
help but be impressed by the quality of these special young men 
and women who are serving in the Armed Forces of the United 
States. They're smart, they're disciplined, they're remarkably 
committed, they know their jobs, they're away from their 
families, they're enduring hardships, they take life and death 
risks on a daily basis, and for that, none of us can really say 
thank you enough.
    My discussions with them actually helped drive home a 
critical point. Whether I was speaking to somebody who wore a 
star on their uniform or a chevron on their sleeve, whether it 
was General Petraeus, or the young woman that I had a great 
pleasure of promoting to Staff Sergeant, every person that I 
spoke with across Afghanistan understood that there is no 
purely military solution; they all get it.
    So, this is an important moment. And I believe that Osama 
bin Laden's death has opened up an opportunity. Certainly, I 
learned in Afghanistan that for Afghans, our accomplishment in 
achieving that raid has given them a renewed sense of political 
space and opportunity--and of confidence about the American 
commitment.
    Afghans do not want the Taliban to return, overwhelmingly. 
But many have concerns about what reconciliation means, in 
terms of their interests. Above all, they don't want their 
struggles and sacrifices over the last 10 years to be in vain.
    There are many courageous Afghans, and I had the privilege 
of meeting some of them, like Nadar Nadari, or Governor Serabi 
from Bamiyan, who are daily struggling to bring about a better 
future for their country through peaceful means. And we need to 
empower those voices so they can lead their country in the 
right direction.
    After discussions with President Karzai and with General 
Petraeus, I am optimistic that we can find a way forward that 
significantly changes the American footprint and secures our 
interests. And on Saturday night, I sat with President Karzai 
and listened to him talk about the necessity of bringing all of 
the parties to the negotiating table.
    He understands that time and American patience are running 
out, but he's also confident that there's a way forward that 
meets everybody's needs. He also realizes that Afghanistan is 
going to suffer an enormous economic shock when international 
forces leave and that we have to work together on a plan that 
is financially and militarily sustainable to Afghans and 
Americans, alike.
    Finally, let me just say that as much as bin Laden's death 
opened a door in Afghanistan, it has also complicated our 
relationship across the border in Pakistan. While the Pakistani 
leadership and people initially reacted by praising our actions 
in Abbottabad, the subsequent discourse in Pakistan, 
unfortunately, became quite sharp and quite critical because of 
the issue of sovereignty and the questions surrounding the raid 
itself. Relations between us, as everybody knows, quickly took 
a dive, jeopardizing both of our countries' national interests.
    I arrived there Sunday night, began the process to see if 
we could find a way to rebuild the relationship. During my trip 
to Islamabad, I met with President Zadari, Prime Minister 
Gilani twice, General Kayani twice, General Pasha, and members 
of the Cabinet. And I emphasized in clear and absolute terms to 
them the serious questions that Members of Congress, and the 
American people, are asking with respect to Pakistan and its 
role in fighting violent extremism.
    I underscored the importance of seizing this moment to 
firmly reject an anti-American narrative that exploits our 
differences instead of finding common ground in advancing 
mutual goals. I also listened, carefully, to the frustration 
that many in Pakistan are feeling about how we have been doing 
business together, about how the raid was conducted and 
perceived in terms of their politics and their ability to 
manage in Pakistan.
    After many hours of talks, we agreed that it was imperative 
to move forward jointly and to take specific steps to 
strengthen the relationship.
    I also emphasized that every step of the way, this 
relationship will not be measured by words, or by communiques 
after meetings like the ones that I engaged in. It will only be 
measured by actions. And that should begin today with the 
return of our helicopter tail to American forces, and in the 
days ahead with very clear, defined measures of cooperation 
which will be further defined by high-level meetings by 
administration officials, commencing tomorrow or the next day, 
and then--depending on the outcome of those discussions, 
hopefully--a subsequent visit by Secretary Clinton.
    I'm not at liberty to describe the things that we will do 
in specific terms--but I'm encouraged by them. And I think 
there is great ability, here, to actually shift the dynamics of 
the relationships between Afghanistan and Pakistan, Pakistan 
and the United States, and between all three and India, and 
ultimately change the longer term strategic interests of the 
region. But that will depend on quiet and effective diplomacy 
over the course of these next weeks.
    The final thing I want to say is, we do have to remember 
that Pakistan has sacrificed enormously in the fight against 
violent extremism; over 35,000 of its citizens have died as a 
result of extremist violent acts committed by the insurgency in 
their country. Over 5,000 of their soldiers have died in the 
Western regions of the country fighting the insurgents. The 
Pakistanis don't have a lot of money. In fact, call them broke. 
During difficult economic times, they rely on assistance to 
wage this fight with us against extremism. Their leaders 
understand that this moment is an important one where they need 
to take decisive action as part of a regional solution in order 
to promote peace in both Afghanistan and Pakistan.
    I am hopeful that the joint statement that we reached 
yesterday that addressed counterterrorism operations and 
pursues a political solution in Afghanistan will help provide a 
roadmap that helps to get us there.
    General Jones, we look forward to your testimony, again. 
Thanks for being here with us.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman. Your own 
modesty would preclude your mentioning, but I will, your 
arrival on the ground at about 6:30 this morning after this 
remarkable trip, and your report of the findings is already 
important to us. But beyond that, we're just delighted that you 
are here, safely, for our hearing this morning.
    I join you in welcoming Gen. Jim Jones. And I just take a 
point of personal privilege to point out, in younger years, 
General Jones was Major Jones, and I was in my first term in 
the Senate and we were wandering through France and Italy, 
among other places learning much about the world.
    Later on, I was asked by the State Department and the 
President of Algeria to undertake a mission to facilitate the 
freeing of over 400 Moroccan prisoners. As it turned out, the 
President of Algeria decided he really didn't want to go, and I 
latched onto Gen. Jim Jones, who was willing to go, and in fact 
provided three aircraft that hauled the Moroccans, some of whom 
had been held for decades, out of Polisario camps in Algeria to 
homecoming group across the border in Morocco.
    So, I thank you for participating with me in those 
endeavors, General Jones, but even more for your remarkable 
service both in the military and in the White House. It's great 
to have you here this morning.
    Our recent hearings have underscored the importance of 
Pakistan to numerous United States national security goals. 
Pakistan is one of the largest Muslim countries in the world, 
with a sizeable nuclear arsenal.
    It is in a permanent state of hostility toward India, with 
which the United States has close relations. It is expanding 
ties with China, and it borders Iran, a state sponsor of 
terrorism with nuclear ambitions. Although the United States 
signed its first mutual defense agreement with Pakistan in 
1954, we have had great difficulty during the ensuing decades 
in forming a consistent partnership.
    One of the main problems in dealing with Pakistan is that 
its government is not a monolith, but rather a collection of 
different power centers that interact in complex ways. There is 
the elected civilian government, which over the years has not 
always been strong or stable; the uniformed military, which has 
seized power at various junctures; the intelligence service, 
which appears to have its own independence within the military; 
and, we are told, a shadowy group of former intelligence agents 
that can act on its own.
    These different actors alternately compete and cooperate 
with one another, and their influence periodically waxes and 
wanes. Equally vexing, each of the players can support U.S. 
policies one moment, but obstruct them the next.
    Add to this mix volatile public elements that can be 
whipped into an anti-American fervor, and you have a partner 
who can seem, as some have said, to be both firefighter and 
arsonist, simultaneously.
    Although Pakistan has cooperated with the United States in 
many significant ways, including the fight against terrorism, 
Americans are increasingly exasperated by the difficulties of 
the relationship. In light of the raid to eliminate Osama bin 
Laden, who was hiding out for years in Pakistan near Islamabad 
and military facilities, many critics have accused Pakistan of 
duplicity, of playing a double game. The event has created, or 
perhaps exposed, what Pakistan's Prime Minister has called ``a 
trust deficit.'' It is incumbent going forward that the Obama 
administration and Pakistan's leaders, both civilian and 
military, take steps to close this deficit.
    That means first, adhering to the agreements and conditions 
of the various assistance programs that form the most tangible 
part of the relationship. Pakistanis must recognize that the 
United States does not give out blank checks.
    The Kerry-Lugar-Berman Enhanced Partnership with Pakistan 
Act, for instance, passed in 2009, set up a 5-year program of 
civilian assistance to put our ties with the Pakistani people 
on a long-term basis. Yet, only a small portion of the 
available funds have been allocated, namely $179 million, in 
part because Pakistan has failed to propose many programs that 
conform to the bill's criteria.
    Similarly, our substantial military aid comes with a 
requirement that the President certify that Pakistan is making 
significant efforts toward combating terrorist groups, 
including al-Qaeda, the Taliban, and their affiliates. After 
the raid against bin Laden, it is an open question whether the 
President could make that determination. Going forward, 
Pakistan must do much more than it has to root out terrorists 
in Pakistan. This includes the Haqqani network in Northwest 
Pakistan, which launches attacks against Americans in 
Afghanistan, and the Taliban, which can find refuge virtually 
unmolested in those parts of Pakistan along Afghanistan's 
southern border. The Obama administration should make clear to 
Pakistan's military that going after some terrorists while 
coddling others will not be tolerated.
    It should also communicate that the Pakistani military's 
deliberate fomenting of anti-American demonstrations to oppose 
United States initiatives and Pakistan's own civilian 
leadership is not acceptable.
    The revelation of bin Laden's whereabouts in Pakistan was a 
setback to United States-Pakistani ties. But this event could 
lay the foundation for a more genuine alliance if it forces 
both sides to confront honestly the contradictions that have 
plagued the relationship for so many years. An independent, 
credible investigation into who in Pakistan helped support bin 
Laden would be a good place to start.
    I look forward to hearing General Jones' views on how we 
can strengthen this vital partnership, and I look forward to 
our discussion.
    And I thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar. I 
appreciate it very much.
    General Jones, as you know, we'll put your full testimony 
in the record as if you've read it in full. If you want to 
summarize, we look forward very much to engaging with you. 
Thank you.

  STATEMENT OF GEN. JAMES L. JONES, JR., USMC (RET.), FORMER 
             NATIONAL SECURITY ADVISOR, McLEAN, VA

    General Jones. Thank you, Mr. Chairman, and Chairman Lugar, 
members of the committee. It's a special privilege to be able 
to be here this morning to talk about a very important country 
and a very important region for the United States and our 
allies.
    I deeply appreciate this opportunity, it's something that 
I've been able to work on for several years, going back to 
2003-04 when I became the NATO commander in Europe, as we 
discussed ways in which NATO would move into Afghanistan. And 
what I'd like to do is, very quickly, just sum up essentially 
some of the highlights of how we got to where we are and some 
of the milestones that we covered along the way.
    As you know, in 2003, NATO made the initial determination 
that we'd be interested in participating in Afghanistan. That 
became a reality in 2004. We had a little bit of a bifurcated 
mission in the sense that NATO was expanding to the north in 
Afghanistan, and then to the west, and then to the south over a 
2- to 3-year period, and then the United States was running its 
own separate operation, the United States, under the Central 
Command, primarily to the east and to the southeast in the 
country.
    In 2004, when NATO arrived in Afghanistan, there was 
already an important organization called the Tripartite 
Commission, which consisted of regular meetings between Afghan 
military leadership, Pakistani leadership and United States 
leadership. The NATO did not have a role or a mission with 
regard to Pakistan, so it was not included in that group.
    In 2006, when NATO completed its counterclockwise 
involvement in Afghanistan in the south, in particular, the 
United States and NATO missions were combined, and it resulted 
in a much more cohesive effort, and that structure has been in 
place now ever since.
    There are other important things; 2006 was, I think, a 
very, very key year for a couple of reasons. One is that it was 
the year, I think, in which Pakistan underwent some major 
earthquakes earlier in the year, and NATO responded by 
providing a great deal of humanitarian relief very quickly, 
along with the United States.
    But what really transpired in 2006 was that Pakistan 
authorities made a decision with the Federally Administrated 
Tribal Areas in exchange for the tribes patrolling the borders, 
that the Army would not do that; would not come into the tribal 
areas. Those of us who studied the situation were a little bit 
incredulous that this was going to work. And events proved 
that--and I think even the Pakistani military and I know even 
General Kayani himself, recognized that this was a big mistake 
because it not only cemented the existence of the safe havens, 
but it also allowed for just a dramatic increase in the flow of 
insurgents to and from Afghanistan from the relatively safe 
havens in Pakistan. And as anyone knows who has ever been 
involved in trying to win a war against an insurgency, if 
insurgents have a safe haven, that makes it very difficult. It 
just complicates things immeasurably.
    So, this 2006 decision, really, was a turning point in 
terms of the number of fighters that were able to infiltrate 
into Afghanistan, and it resulted, obviously, in our 2009 
decisions to augment our own forces in order to turn around a 
deteriorating security situation in Afghanistan.
    Pakistan had developed its own problems internally. The 
insurgency that was turning against Pakistan in the Swat 
Valley, in the South Waziristan posed a great threat to the 
stability of the Government, and the Army moved against their 
insurgents, the insurgents in the Swat Valley and in South 
Waziristan in ways that were very encouraging. And they did a 
very good job.
    As a result of Prime Minister Singh's willingness to reduce 
tensions along the Indo-Pak border by pulling back some of the 
Indian forces, that allowed the military authorities in 
Pakistan to transfer a significant amount of troops from their 
border with India to the pressing situation along near their 
capitol. And as I said, the operations in the Swat Valley and 
South Waziristan were significant, and effective. I personally 
visited the Swat Valley and was able to talk to the military 
leaders and the civilian leaders. And while they have the 
ability to clear and hold a certain significant chunk of that 
territory, they lack in the capacity to be able to transfer to 
local authorities in such a way that the local authorities can 
keep the peace in the areas that the Army has cleared. So, it's 
a very manpower-intensive operation. The Pakistani Army has 
always been beset by mobility problems, lack of helicopters and 
the like, but really what is really lacking is the ability to 
transfer and move their troops out of the areas and have 
confidence that the local police and the local military would 
be strong enough to maintain stability in those regions.
    In 2009 when the President assumed the Presidency and 
turned his attention to the region, we opted to consider more 
of a strategic approach, take a more strategic approach. 
Instead of dealing with the three countries, India, Pakistan, 
and Afghanistan separately, it became clear that increasingly 
we couldn't talk about Afghanistan without talking about 
Pakistan, and vice versa, simply because of the border and the 
safe havens.
    We adopted--and I thought did a pretty good job in 
consulting--with both the civilian and military leadership in 
all three countries, to include India. We put together the 
elements of a long-term strategic partnership plan with all 
three countries. We emphasized in this partnership that there 
would be three main pillars to it; a security pillar, an 
economic pillar, and a governance and rule of law pillar, 
particularly for Pakistan and Afghanistan. In each case, when 
we put this offer on the table, it emphasized the long-term 
nature of the relationship, the fact that we believe that the 
region was strategically very important, not only to us, but to 
peace and stability in the world, and we developed a specific 
set of criteria that in order to make this plan work, that they 
also would have to be able to meet and to show progress in 
arriving at those long-term goals.
    For Pakistan it was, from our viewpoint, it was a fairly 
straightforward request of renouncing terrorism as an 
instrument of foreign policy, and to be able to show a 
willingness to move in due time, and within means and 
capabilities--against other safe havens and terrorist networks 
in their country.
    We spent a lot of time trying to help the Indian-Pakistani 
relationship following the attack in Mumbai, obviously very 
concerned that another attack might happen, and if such an 
attack took place, particularly on Indian soil, it would be 
very difficult to control the reaction of India. And so the 
propensity for violence along the border was always something 
we tried to mediate between both India and Pakistan, and I 
think with some modest success. As I said, Pakistan was 
reasonably comfortable with moving some of their troops off of 
the border to go to their west coast.
    Other gestures by India that were most helpful, in addition 
to the Prime Minister's decision to defuse a little bit of the 
tension on the border, was India's donation of $25 million to 
help the victims of the terrible flood, which is a $10 billion 
catastrophe, involving 7 million displaced people at a time 
when their economy really could not stand such additional 
pressure.
    In 2010, multiple efforts to build trust between the United 
States and Pakistan--both public and private trips to and from 
the area--to build and develop the trust and confidence that's 
required, long-term strategic plan still being developed and on 
the table, we did receive some assistance from the Pakistanis 
in terms of intelligence exchanged that led to captures of some 
leaders of al-Qaeda. We had a pretty impressive run of success 
in terms of being able to kill or capture a significant portion 
of al-Qaeda leadership resulting, of course, in the most recent 
one involving Osama bin Laden.
    So, but I'd say 2010 was still a year of testing, of 
building the relationship. The Pakistani's economic woes are 
well-known, and they are being subjected to inflationary 
tendencies within their economy and really just being short of 
funds in order to do what needs to be done inside of the 
country. They still have a big, almost phobic, relationship 
with India, and we are working hard to overcome the mistrust 
that exists between both countries.
    Mr. Chairman, as you pointed out, the impact of the Osama 
bin Laden operation is one that presents us, I think, with an 
opportunity to get past these feelings of mistrust, now 
heightened on both sides. But if we could use this as a pivot 
point to try to bring about this reconciliation in terms of 
what's tremendously important for the security of the region, 
it would be worth taking, in my view, a long-term view.
    The strategic consequences of a failed state in Pakistan or 
not being able to build the trust between both countries, and 
it's going to take two--it's going to take both sides to work 
very hard on this. And, as you pointed out correctly, I think 
it's going to take some actionable, demonstrative indications 
of goodwill, but it's so very important. If we want to be 
successful in Afghanistan, the roads to that success have a lot 
to do with Pakistan. And it's not a question of who's got the 
advantage, and who portends to gain the most from this 
relationship; we all lose if it doesn't work. And I think that, 
hopefully, this moment, after all is laid out and all of the 
facts are in, that we can, in fact, continue on the path of a 
strategic relationship that is so very important for the future 
of our operations in Afghanistan, the stability of Pakistan, 
and also our global effort to make sure that terrorism is 
defeated once and for all. I think the disappearance of Osama 
bin Laden was a terrific message. It shows just how far we've 
in terms of working with many counties around the world, 
sharing intelligence at a rapid pace, building trust and 
confidence.
    We have diffused many attacks--some publicly known, some 
not--as a result of this cooperation. Pakistan deserves its 
share of the credit in helping us along with that. But the 
wars--the fight still goes on against terrorists. But I think 
we can honestly say that the world is probably a little bit 
safer without Osama bin Laden in terms of the 9/11-type of 
attacks that they used to be able to generate. Let's hope that 
they don't have that capacity anymore, and that we can benefit 
from a surge of international cooperation that has us, at 
least, tracking terrorist organizations wherever they appear.
    I'm very honored to be here today, Mr. Chairman, and I look 
forward to our discussion.
    The Chairman. Well, again, General thank you for being here 
today, and thanks for that testimony.
    You've commanded troops in the field and have been a chief 
at the highest level of military leadership, and you have 
served as National Security Advisor to the President of the 
United States, so you've seen kind of the struggles with the 
field commander view, and you've struggled with the larger 
strategic view. And I wonder if you'd help us work through a 
couple of things.
    First of all, you would agree, I assume, as most of the 
reports are stating, that the military progress on the ground 
in Afghanistan is, in fact, real, it's measurable, and it's had 
an impact on some perceptions and on security. Is that a fair 
statement?
    General Jones. I agree with that, Mr. Chairman.
    The Chairman. And, would you agree, also, that the biggest 
single challenge to the security in Afghanistan is the attacks 
and personnel launched from the western part of Pakistan?
    General Jones. I absolutely have come to the conclusion 
over the last several years that--as I said in my opening 
remarks--that trying to defeat the Taliban, or any other 
organization, while they have safe havens across a border is 
extremely difficult. It costs more lives, more of our national 
treasure, and it precludes us from being as successful as we 
otherwise might be.
    The Chairman. With respect to the effort on the ground in 
Afghanistan, let's start with the challenge of reconciliation 
and finding Taliban who are real, who might be willing to 
negotiate. Would you share with the committee your judgment as 
to the greatest hurdles or impediments to our being able to 
start the reconciliation process, or what we might change or 
add to the equation, if anything, to facilitate that process?
    General Jones. With regard to Pakistan?
    The Chairman. With regard to anything that relates to the 
reconciliation/peace process so that we can take advantage of 
this political space that's been created because of the 
military success?
    General Jones. Mr. Chairman, I am of the view that in all 
of these types of engagements in this 21st century, there are 
essentially three major components that have to be working 
simultaneously. And the first one is the security component, 
but as time has shown us, this is not enough. But security, 
obviously, has to be restored to a certain level before you can 
do anything else.
    But very quickly, in addition to security, as people 
transition to a different type of government and want more 
transparency in their lives, a democratic system, there has to 
be something else. There has to be reforms to meet the people's 
expectations, for instance, governmental policies, rule of law, 
where corruption exists, it has to be attacked; you need a 
judicial system that's functional. And you also need an 
economic pillar that shows that the people, there is an 
alternative to the way they were living before our assistance 
package started.
    And it's those three things, working simultaneously, in 
some sort of harmony, that really turns the tide. We learned 
that, historically. We learned that in World War II, we learned 
it Europe, we learned it in Japan, and wherever we've had kind 
of a comprehensive package that starts with the security 
element and then has a follow through that actually shows the 
people what their lives are going to look like, that's the way 
to defeat extremist ideologies. They'll continue to blame us, 
and people like us, for being the root of all evil and of all 
problems.
    The Chairman. But isn't that really a nation-building 
exercise?
    General Jones. Well, unfortunately you have to either go in 
and restore or take care of the security challenges and then 
very rapidly--or as rapidly as possible--transition over to a 
government that can take charge of it, and I think that's where 
we are today.
    In December of last year, at the NATO summit in Lisbon, the 
alliance agreed on 2014, which was President Karzai's request; 
by then he would like to be in full control of his economy, of 
his government, of his military and the security mission, and I 
think we're moving in that direction, and we'll see the first 
steps taken this year. It will not just be us, it will be us 
and our allies who will figure out a way to reduce our forces 
and gradually turn it over to the Afghans. And I think that----
    The Chairman. Can we achieve that without resolving the 
Pakistan piece? Or is the Pakistan piece essential to making it 
possible to get that equilibrium?
    General Jones. It's my personal view, Mr. Chairman, that 
the degree to which Pakistan pivots and does more effective 
work along their border and toward the safe havens that are 
most concerning to us, that we have an enhanced chance of a 
greater degree of success by 2014 if they do that. And so the 
importance of Pakistan figuring out the way that they can do 
their share, with the assistance that they need, would be a 
defining moment and a turning moment, I think, in the outcome 
in Afghanistan.
    The Chairman. What kind of Afghanistan do the Pakistanis 
view as being in their interest?
    General Jones. It's interesting, and that's a very hard 
question, because there isn't just one Pakistani view. If you 
talk to their military you get certain answers, if you talk to 
their civilian leadership you get certain answers. And, 
unfortunately, they're concern with India has something to do 
with Afghanistan. If you're looking at it a little bit through 
their eyes, you're a little bit worried, perhaps, you have 
India to their east, Afghanistan to the west, and an Indian 
presence in Afghanistan insights their fears for the long-term 
future.
    So, they have really been very careful to not overcommit to 
doing anything in Afghanistan, which is unfortunate. Because 
if, in fact, the Pakistanis really adopted the long-term 
strategic relationship that, I think, was put on the table in 
2009 and reiterated in 2010, they would have a better economic 
future. Their people would be better off. They would get 
assistance, internationally, that they critically need, and you 
know, from our standpoint it seems illogical that they wouldn't 
seize on that moment. But, logic doesn't always play a dominant 
role in this situation.
    The Chairman. No, it doesn't. Thank you very much, sir.
    Senator Lugar.
    Senator Lugar. General Jones, you just touched a moment ago 
on Pakistan's relationship with India. What is your judgment as 
to why there has not been more effort on the part of Pakistan, 
or India, to forge ties that would lead to peace between the 
two countries? Granted, it's almost a given that the Kashmir 
dispute is there, and therefore, groups like Lashkar-a-Taibba 
are tolerated by the Pakistanis because the Pakistanis perceive 
that they have some value with regard to pressuring India.
    You also suggested that Afghanistan is a ground in which 
both India and Pakistan might play against each other, and 
therefore is not to be conceded very readily. You mentioned 
that, because of Pakistan's historical conflict with India, a 
lot of those within the Pakistani Armed Forces feel that India 
has to be the major influence with regard to the problems they 
are facing, many of their efforts and expenditures are 
therefore accordingly concentrated to address these issues.
    But, is this an area in which the United States could play 
any role in terms of encouraging peace? We keep going back and 
forth with Israel and the Palestinians, but the conflict 
between India and Pakistan is clearly, as a part of what we're 
talking about today, at the heart of the problem.
    General Jones. Senator, you've put your finger exactly on 
one of the things that is the most vexing of issues. We have 
tried to play a role, not a direct role, but an indirect role, 
in diffusing tensions and carrying message back and forth, 
encouraging foreign ministers to meet. As I said earlier, I 
think Prime Minister Singh deserves a lot of credit for taking 
a political risk in his own country to show a more reasonable 
side in terms of this issue by working to diffuse tensions 
along the border; he showed great restraint after the Mumbai 
attack.
    I think that this is one problem that the Pakistanis will 
have to think very hard about as they decide how they want to 
play in this regional situation that they find themselves in 
the center of, on both sides.
    While that presents some unique challenges, it also 
presents some unique opportunities. It will take political 
courage, and military support of that political courage to 
recognize that there is a better way, here, with regard to 
India. But, so far, they have been extremely reluctant--and, in 
some cases, resistant--to grasping that opportunity.
    As I mentioned, also, India stepped up during the floods 
and donated some money, $25 million. Would have done more if 
they had been properly thanked and there had been a reciprocal 
gesture of goodwill. But, these are things that India--I'm 
sorry, Pakistan in this very important time are going to have 
to come to grips with, unfortunately almost simultaneously, 
because they need troops on the western side of their country 
in order to do what we want, what we'd like them to do, and 
their argument would be that, ``Well, most of the Indian Army 
is still deployed, at least in proximity of, the Indo-Pakistan 
border, and you know, if they withdrew some more forces, that 
would let them withdraw some more forces.''
    So, I think there's a big role for the United States to 
play. I think we've adopted a regional strategy that makes 
sense. It hasn't always yielded everything we've wanted, but 
you cannot deal with each country individually. It's a regional 
problem, and it has to have regional solutions.
    And I do think that other countries could help, materially. 
China has a border that they should be concerned about, Russia 
has a border they should be concerned about, and it may be 
worthwhile to see if, from the standpoint of aid, financial aid 
to Pakistan, that there might be a possibility to obtain some 
of that for their own internal reconstruction.
    Senator Lugar. Well, in the same way that we've taken other 
diplomatic tacts in the past, this seems to me to be one that 
would help reset the relationship and be very, very important. 
We've talked about putting together Afghanistan and Pakistan in 
our consideration, but putting India and Pakistan foremost 
could be very important.
    Let me just follow on by noting that you touched upon the 
Kerry-Lugar-Berman bill at one point, and I mentioned this in 
my opening statement. After we began talking about this package 
lasting for 5 years, both the Pakistani press and the Pakistani 
leadership applauded this move because it represented the sort 
of sustained, long-term commitment that Pakistan has been 
seeking from us for some time.
    But then, very rapidly, as soon as people began to think 
about who would control the funds, who would determine the 
projects, and what sort of auditing there could be on behalf of 
the American taxpayer, this sentiment fell apart in a big way, 
and the Pakistani press--quite apart from the leadership--
perceived all sorts of intrusions on Pakistan's sovereignty. 
And so, as a result, almost nothing has gotten done. However, 
should this situation change, the opportunity to continue 
providing assistance to Pakistan under Kerry-Lugar-Berman 
remains.
    And the possibility remains for the United States that 
working with students, health care practitioners, those 
involved in upholding the rule of law, and others could offer 
the opportunity over a good number of years to build a more 
robust, sustainable friendship. As a matter of fact, we want 
the quality of the friendship, actually, to increase as a 
result of talented Americans and Pakistanis working together.
    How are we going to get over the bridge with regard to that 
situation and actually get some shoes on the ground in terms of 
work with civilians, and with ordinary Pakistani citizens who 
might then come to have a different regard for the United 
States?
    General Jones. Senator, from our standpoint it seems like 
an obviously good solution of what should be done. But when 
questions of sovereignty kick in and they feel like the terms 
are being dictated, what they're being asked to do is an 
affront to their national pride and so on and so forth, then 
you get illogical answers. And I said, logic is something here 
that doesn't play a big role. The analogy was between the 
Israelis and Palestinians, as well. You know, here's a 
situation where everybody knows what needs to be done; both 
sides actually agree that it needs to be done, but nobody will 
take the first step.
    And I think if we can, in fact, pivot on this moment--this 
very important moment around Osama bin Laden and have an airing 
of what happened and what didn't happen and get beyond and get 
back to the real strategic potential, here, and get the 
Pakistanis to really understand what we're trying to do, which 
is trying to help them, perhaps working harder to understand 
how they view the world, as well, then I think there's a good 
possibility that we could do it.
    But, I will freely admit that it's a very difficult point 
to make in a way that resonates in that very fragile country 
that has a fragility of leadership that is obviously so 
apparent.
    Senator Lugar. Thank you very much.
    Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    As I recognize Senator Cardin, I need to step down, 
briefly, to the Finance Committee; I'll be right back, but 
Senator Lugar will chair in my absence.
    Senator Cardin. Thank you very much, Mr. Chairman.
    Let me first thank you as you leave for your incredible 
help this weekend in your visit to Islamabad and Pakistan. We 
very much appreciate your leadership in trying to calm things 
down, so thank you.
    And General Jones, thank you for your service, appreciate 
it very much.
    After the bin Laden mission, I think all of us, our initial 
response in regards to Pakistan is, how could Pakistan either 
be so inept or so complicitous? And then we heard the response 
come out of Pakistan, which was somewhat encouraging, within 
the first 24 hours. But then there was an about-face in 
Pakistan, a very anti-American rhetoric. I think our initial 
concern was whether Pakistan shared our commitment to fight 
extremists, and that was our main concern.
    So, I think we're now going through an evaluation whether 
Pakistan's our ally and friend, and if they are, why are they 
spewing so much anti-American rhetoric and causing so much 
concern about our working to root out extremists in Pakistan 
and that region?
    And if they're not our ally and friend, shouldn't we be 
looking for alternative ways to deal with extremists in that 
region, and is it worth the type of political and financial 
investment that America is currently making in Pakistan?
    So, I think that's the dilemma that many of us are facing, 
as to whether this truly is an ally, or not an ally. And I 
would appreciate your candid view, here, as to whether the 
United States--obviously we want to be friends with--and 
strategic friends with--as many countries around the world as 
we can be. But if it's not to be, I think we have to take a 
look at alternative. So, I'd appreciate your view.
    General Jones. Thank you. My personal view is that we 
should continue our efforts to find the magic here that will 
cause Pakistan to pivot in what we think is a direction that's 
in their own self-interest, to start with, but, also in the 
greater context of the stability in the region, the very, very 
important decision that they need to make. And I don't know 
what the answer will be, here, in terms of the reaction, but 
inside of Afghanistan, I've always been puzzled at why it is 
that the popular opinion with regard to the United States is 
always at such a low ebb in not only Pakistan, but in other 
countries around the world given the magnitude of our efforts. 
So, we need to figure out how it is that we can get the 
leadership--both civilian and military--and the popular 
opinion, because what's emerging in Pakistan is a press that's 
extremely critical and extremely important in terms of 
fomenting public opinions in Pakistan.
    But the strategic importance of the county that won't 
change; that's a given. But how we pivot from this very low 
point, in terms of both countries' relationships, and how we 
rebuild the trust and confidence, and how Pakistan kind of sees 
where it wants to be 10 or 15 years from now, I think, is 
really the question.
    And most of their responses to our long-term plans have 
been pretty tactical responses. They're interested in what 
we're going to do tomorrow or the next day. A drone attack 
throws off the relationship if there's collateral damage. We're 
always living from day to day, and it's very difficult to get 
them engaged in, you know, what their country might look like 
10 or 20 years from as a result of the actions that they take 
today.
    But this is a pivotal moment; very strategic, very 
important. And I think we should do everything we can to try 
to, once again, persuade them to turn in the right direction.
    Senator Cardin. We spend a lot of taxpayer support in 
Pakistan, and I think all of us understand the strategic 
importance of that country. I guess my question to you is, we 
have the ability to either refocus that aid, or make it 
conditional upon certain commitments from Pakistan. We clearly 
need to do something different, in the respect of winning over 
more popular support within Pakistan, which is an important 
element in our strategies.
    So, do you have any advice for us, as to perhaps refocusing 
the aid, using it in a different way? Or, the conditionalities 
that are likely to be imposed on that aid, as to what we should 
be focusing on in order to, as you say, pivot to a better 
position?
    General Jones. Well, I think that if we decide that we want 
to be helpful to the Pakistani military and if, in return for 
that help, the Pakistani military will commit to a more 
effective and longer reaching effort against the safe havens 
and the security of the border, then there are some things that 
would be interesting to look at. A critical need of the 
Pakistani military is mobility. It's not terribly 
sophisticated, but it's helicopters and transportation, rapidly 
and otherwise.
    They need help in rebuilding their local enforcement 
capabilities, law enforcement capabilities. I use the example 
of the Swat Valley where two divisions are permanently tied 
down there because there's no way to transition to anything; 
there's just no infrastructure.
    But I think we could be helpful, and other countries could 
be helpful in providing the necessary mobility that they need 
in order to go after thing that we think they should do. And I 
think that it would take a commitment on their part that they 
would be willing to do this. And that commitment has just not 
been made. They've opted for playing both ends against the 
middle, a little bit, and this is where we are.
    There are other levels of assistance, basic assistance that 
the country needs in terms of economic packages that people 
have put on the table. They would be transformative in terms of 
the economy. They have to show, on the other hand, that they're 
willing to implement reforms against corruption and to show 
that the rule of law is really something that they're willing 
to live by. The occasional stories about extrajudicial killings 
and the like which jeopardize our relationship because of our 
own laws is just one example of a tortuous path that we've had 
to work around in order to have to keep the relationship at the 
current level, let alone progress to the level we would like to 
see it progress to.
    So, it is a difficult moment, but it's a moment of 
opportunity if cool heads prevail. And particularly I think in 
Pakistan that the leadership takes a longer term vision than 
just what's going to happen next week or next month.
    Senator Cardin. Well, I have my doubts on some of those 
expectations, but thank you very much for your responses, sir.
    The Chairman. Thank you, Senator Cardin.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, and thank you for 
the hearing and, General Jones, for your service. You look much 
more rested. I know you wake up and watch what we're doing and 
smile, and are able today to speak more freely.
    You mentioned, to Senator Cardin's question about where the 
aid should go, but we didn't talk about the conditions upon 
which aid should flow. I think everybody looks at this as an 
opportunity to change that relationship just because of the 
embarrassment this has created within Pakistan. And I think you 
said, if they're willing to help us rout out the extremists in 
the FATA and other areas--is that one of the conditions? What 
are the three conditions you would place on any future aid? I 
think most of us are wanting to call timeout on aid until we 
can ascertain what is in our best interest in what I would 
consider to be more of a transactional relationship. So in that 
transaction, what are the three things you would absolutely 
ensure were the case before we provided more aid to Pakistan?
    General Jones. Well, I think the two main qualities that we 
hope to have achieved with Pakistan during the last 2 years 
were on the table. And the first one was that Pakistan, like 
other countries, should make a clear and definitive statement 
that as part of their national policy, they reject the use of 
terrorism as an instrument of foreign policy. And that 
shouldn't be hard to do.
    The second piece, though, is a little bit more difficult, 
and that is that they should commit to making sure that in 
order to live up to that first statement, that they're willing 
to do those things that are required in their own country to 
ensure that terrorist organizations are gradually attrited and 
rooted out. And unless and until they commit to doing those 
things, it's going to be difficult, I think, to get our 
taxpayers to understand the logic of continuing to support a 
country that doesn't seem to be able to get its act together on 
those particular, very logical points.
    Senator Corker. And you being one of those taxpayers, would 
you agree that that ought to be the type of thing we should get 
out of Pakistan as a condition of any future aid?
    General Jones. I think it's fair, that given what enormous 
potential of the benefits that could accrue to Pakistan and the 
people, and the country--not just from us, but other--the 
international community as well, that that is their best--
that's the best road to the future.
    Senator Corker. And what's the best way to make that 
happen, where we have tangible evidence that they are going to 
begin, in a more expeditious manner, to actually rout out those 
terrorists' organizations that aren't focused on Pakistan, but 
are focused on India and Afghanistan?
    General Jones. As I said, it's going to take a major, I 
think, internal reevaluation of how they've conducted business 
to get to that point where they can, in fact----
    Senator Corker. But you would want to have that 
understanding before you saw any more aid flow to Pakistan? I 
want to make sure I understand what you're saying.
    General Jones. I think that Pakistan has to--should really 
consider, to make a proactive statement as an intent of their 
national policy and start demonstrating their willingness to 
actually live up to that policy. And as a consequence of that, 
then, I think, that the kind of assistance that they need to 
get to where they can possibly go, would then flow that way. To 
me, it's no more complicated than that, although they will make 
it very complicated.
    Senator Corker. I think it's pretty impactful that a former 
national security advisor would make such a statement.
    Let me ask another question. We had witnesses in a couple 
weeks ago who mentioned--first of all, I've been here 4 years, 
and about every 6 months, our reason for being in Afghanistan 
changes. You know, it just sort of keeps evolving to sort of 
suit the times, if you will.
    The late Mr. Holbrook, when he was in last, stated that the 
reason we're there is because of our strategic relationship 
with Pakistan, we didn't want to destabilize Pakistan. We had 
witnesses in a couple weeks ago that believed that, really, 
Pakistan does not want a stable Afghanistan, they really want a 
degraded Afghanistan that doesn't have the ability, on their 
rear side of India, to really cause much trouble. I wonder if 
you had any thoughts you might share in that regard.
    General Jones. I think that Pakistan has pursued a policy 
that has been, for several years, very difficult to understand 
from our viewpoint. The failure to move against terrorist 
organizations, to effectively patrol the border--even though 
they have rendered some assistance, and we have to recognize 
that--is something that strikes as being illogical. From their 
viewpoint, as I said, with their concerns with their neighbor 
to their east, in India, seeing the presence of India in 
Afghanistan, contributes to a philosophy of encirclement which 
they're uncomfortable with.
    But, I think we're at the point where in this relationship 
we have to have a very serious meeting of the minds to say, 
``okay, how are we going to proceed from this point on?'' 
Because we can't continue the way it is right now. And I think 
the successful raid on Osama bin Laden can either be pivoted to 
be kind of a positive in future, if we pivot the right way, or 
it can be a negative. And that's really what this is all about 
right now.
    I'm hopeful that at long last, cooler heads will prevail 
and logic will come into the equation, and our colleagues in 
Pakistan will see the future with a little bit more of a 
strategic vision than what they've been showing. They certainly 
understand the stakes and they certainly understand that the 
adverse potential of any kind of future attack from Pakistani 
soil, in India, in the United States, or elsewhere, will 
dramatically change the outlook for the future of Pakistan. And 
they have to understand that that's a very, very serious risky 
business that they're playing, by not making that declaration 
and by not showing the watching world that they're willing to 
move against these terrorist organizations.
    Senator Corker. May I ask one more question?
    The Chairman. Sure.
    Senator Corker. You know, as I listen, we talk about the 
strategic relationship, we look at Afghanistan, and we look at 
sort of the bipolar or just nonrational activity that takes 
place in Pakistan. It's hard for me ascertain exactly what our 
strategic relationship is. I mean, this is a country we don't 
want to have in extremist hands because of the nuclear weapons 
that they have, but other than that, it's hard for me to 
understand specifically today, in today's terms, what our real 
strategic relationship is.
    And I'd love for you to maybe talk with us--I know that I'm 
using up other people's time, I know Senator Kerry is tired 
from a long trip and I won't prolong this, but I sure would 
like to have a conversation with you about exactly what that 
strategic relationship is. Because at present, it seems to me 
that we have a country that acts in rogue ways from time to 
time and we give them aid as a result, but as far as those 
things that are most pressing to us today, strategically, 
they're not much of a partner.
    General Jones. I'd be happy to do that, Senator.
    The Chairman. If I can just say before I recognize Senator 
Webb, I would like to arrange a classified discussion at some 
point in time in the near term. But, suffice it to say that I 
think your question's obviously a legitimate one. And it was at 
the center of the discussions that we had. And I will tell you, 
everything was on the table and was discussed with as much 
precision and depth as I've ever experienced it.
    And, they did agree with respect to some very specific 
efforts, which I don't want to go into now, but it's important 
for every Senator to know about these efforts. The executive 
branch will discuss the efforts with specificity in the next 
few days, and they will be the subject of Secretary Clinton's 
next visit to Pakistan.
    So we're really honing in, I think, in a way that committee 
members and Senators want us to. But I found a distinct 
understanding among the Pakistanis of the importance of moving 
forward in a positive way. There will be some responsibility 
for us to do certain things, too, to help empower that, and I 
think we all have to be recognizing it's not going to be a one-
way street.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman. Welcome back.
    General Jones, I monitored the opening statements and the 
first questions from my office. I won't belabor my appreciation 
for how well and how long you served our country. It's been a 
great pleasure to have served and worked with you for many 
years, and your advice and counsel is very valuable to us.
    If we're looking at the strategic implications of Pakistan 
in the region, quite frankly, I don't see how we can discuss 
the reality of this issue without addressing China's influence. 
Not only in Pakistan, but it's national interest in this entire 
region. We can't examine clearly what our options are, and I 
don't think we can examine what the region is going to 
potentially look like, without talking about China.
    We all know, those of us who have worked in these areas for 
a long time, of Pakistan's long-term relationship with China 
and the reasons behind it--it's inception with the situation 
with India and the shared concern about India many, many years 
ago. There are people, smart people, who would assert that 
China actually enabled Pakistan to become a nuclear power.
    Just as I was walking in here, BBC issued a news break 
indicating that the Pakistani Prime Minister just landed in 
China and hailed China as Pakistan's ``best friend.''
    Looking at this from a strategic perspective, from an 
American strategic perspective, one of the concerns that I've 
had about Chinese foreign policy for many years, is that we 
really need China to become more overt in helping us solve 
problems around the world, whether it's Iran or Burma or North 
Korea and certainly here. They are going to be a big 
beneficiary of any stability that we bring about in the region. 
They're going to be a commercial beneficiary and also will 
benefit in terms of regional stability.
    So, the real question is, how do we get China to be more 
involved in the solution of these kinds of problems rather than 
simply taking advantage of things one by one as they go wrong?
    General Jones. Senator, that's a great observation and 
mirrors exactly with my philosophy about where the world is 
going in the 21st century.
    We, hopefully are emerging from, once and for all, from the 
bipolar world of the 20th century, and we recognize the 
multipolarity of the world and with the rise of other economic 
powers in the world like India and China, Brazil, the European 
Union as a whole, and perhaps others, Russia. It seems to me 
that there is a strong case to be made that for us to make the 
world a better and a safer place and to solve problems like we 
have in Pakistan and Afghanistan, whose borders are contiguous 
to China's and Russia's as well, they do have an interest in 
making sure that this region is as stable as possible, as we 
begin to transition our posture in Afghanistan, in particular.
    And I think that it's well worth the effort, as bilateral 
relations with China continue to hopefully improve, the 
relations with Russia have improved dramatically, that the 
application of a solution set that includes not just security 
and troops on the ground, but also the economic pillar and 
assistance in developing the instruments of governance and rule 
of law in these countries so that they can move into the 21st 
century themselves. There are all kinds of other ways to help, 
with energy solutions and the like.
    This is, I think, the pattern for the 21st century, and if 
we are not able to create an environment where a country like 
China and Brazil and India understand that with this great 
economic power that they're about to have or already have in 
some cases, there comes some great responsibilities in terms of 
making the world a better place, and that we don't have to do 
it alone, is very worthwhile.
    Senator Webb. I would agree. I've had, as you know, many 
concerns about Chinese expansionist activities, particularly 
the South China Sea area sovereignty issues. I actually held 
hearings on those issues in the East Asia and Pacific Affairs 
Subcommittee. But perhaps this is a situation where we could 
test the goodwill of a growing China in terms of using its 
influence to help Pakistan direct its energies in a more 
positive way.
    General Jones. Well, if any part of Pakistan thinking is 
that better relations with China make India mad, and that's 
therefore a good thing to do, then that's flawed thinking, I 
think. And we need to try to ensure that we can make sure that 
the relations don't get worse as a result of this kind of trip 
and this kind of rhetoric.
    Senator Webb. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Webb. I think that's an 
important point. And actually, the Prime Minister was headed 
off to China, and we had a discussion about it. China figures 
very significantly into some of their strategic thinking.
    Senator Corker has left, but I would just say to Senator 
Corker, aid alone is not the only ballgame here, and we need to 
be very cognizant of that. While it's an important part of it, 
they have strategic interests. And we're going to have to work 
those strategic interests with respect to India and Afghanistan 
even as we deal with aid.
    Senator Risch.
    Senator Risch. Thank you very much.
    General, in order to follow up on this conversation we're 
having right now about China, can you give us some indication 
of what China's expenditures in Pakistan--how they compare to 
ours, the aid, both the civilian and the military? Can you give 
us some kind of an idea of comparability of the two countries?
    General Jones. I don't have that figure, Senator, but I'll 
do my best to try to find out. I'm not sure that we know that.
    Senator Risch. Do you have a general sense of that?
    General Jones. I mean, our aid package totals about $4 
billion----
    Senator Risch. Right.
    General Jones [continuing]. Give or take, but I don't know 
what China's report is.
    Senator Risch. Do you know for a fact whether they are or 
are not doing an aid package like we are?
    General Jones. I think there is some aid, but I don't think 
that it's, at least as of yet, is, you know, there's a real 
competition between us on this. And I don't think it rises to 
our totals.
    Senator Risch. Well, thank you much, and I--Senator Kerry 
just mentioned that it's not all about aid, and I agree with 
him on that. I have a real difficulty in explaining to people 
back home in Idaho what we're doing spending billions of 
dollars in Pakistan, particularly on civilian matters, when 
they don't like us. I mean, every poll you see that comes out 
of there, they don't like us.
    And here they had this terrible tragedy with the floods. We 
went in, we were the first ones there, we sent the military in, 
we saved people's lives, we helped them. Then after the fact, 
we went in and spent hundreds of millions of dollars rebuilding 
the bridges that were washed out.
    Idahoans asked, ``Why are we spending our kids' and our 
grandkids' money to do this in a country that really doesn't 
like us?'' And no matter what we do, we don't seem to move the 
needle at all as far as them liking us. And, where we're 
borrowing 40 cents out of every dollar that we spend, it is a 
hard sell to the American people, that we should borrow 40 
cents, a lot of it from China, and spend it in Pakistan. And 
then have the head of Pakistan go to China, and then as Senator 
Webb said, stand up and say, ``You're our best friend.'' It 
just doesn't make sense.
    And, I agree with--I'll be interested to hear what Senator 
Kerry has to say about these items that are nonaid items, 
because frankly I'm getting tired of it, and I think Americans 
are getting tired of it, as far as shoveling money in there, to 
people who just flat don't like us.
    General Jones. Senator, this is that moment where there's a 
lot of emotion on both sides and it is hard to explain. And 
that's why I think that what happens in the next few weeks, in 
terms of this relationship, is going to be extremely strategic 
in terms of consequences.
    But I really think more of the onus is on Pakistan and if 
they decide to take what we think is the logical path and the 
right path for their, not only their future in their bilateral 
issues with us, but just how they present themselves to the 
world. I mean, is it going to be a state where they tolerate 
the existence of terrorist organizations on their soil as an 
instrument of their foreign policy? And if they reject that, 
and categorically say so, and then show that they are actually 
doing some things to correct that image, then I think the 
goodwill of perhaps the international community and our 
goodwill might be a little bit easier to explain to your 
constituency in Idaho.
    But, there has to be a change in behavior, here. We 
cannot--we probably can't continue the way we are right now.
    Senator Risch. Thank you, General.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Risch.
    So, the one thing I'd say to you, Senator, is that right 
now we have about 100,000 reasons for worrying about our 
relationship with Pakistan: our young men and women in uniform 
in Afghanistan. So it's complicated. I can't wait until we have 
a classified session. I think it would be important for us to 
have this conversation.
    Senator Coons.
    Senator Coons. Thank you, Chairman Kerry, and thank you for 
your hard work and your leadership on this issue, and for 
convening this hearing today.
    I agree with what you've already spoken to eloquently, 
General, that this is a critical moment in our relationship 
with Pakistan. Like several of the other Senators who have 
spoken, I'm hearing from my constituents at home, real 
frustration, real concerns.
    Based on my own observations from a trip to Islamabad in 
February with Senator Corker, it's clear the United States and 
Pakistan share a common enemy, that they have suffered 
significantly from extremism within Pakistan, that just this 
past Friday, more than 80 Frontier Corps were killed and 
another 100 people injured on the other hand.
    Like many Americans, I'm deeply disturbed by what seems to 
be a state that plays a double game, that accepts significant 
multibillion dollar aid from us, combats groups that target its 
own domestic concerns, but then clearly hedges against the U.S. 
mission in Afghanistan, is an uneven partner at best. And one 
of my favorite metaphors from our trip was the suggestion that 
they are both a fireman and arsonist in this regional ongoing 
conflagration.
    I want to start by thanking you for your service and your 
advice and counsel today has been very helpful.
    How can the civilian government of Pakistan be a true 
partner to America with a Parliament that just passed a 
resolution condemning the bin Laden raid and threatening to 
take action against the United States if drone strikes 
continue, including cutting off supply routes to Afghanistan? 
You said success in Afghanistan runs through the roads of 
Pakistan, and I think you mean that quite literally, 
tactically.
    General Jones. Well, it is difficult to explain. The 
passions and the rhetoric that gets fired up in Pakistan are 
directed at us, very specifically. We do have a strong 
dependence on our supply routes coming through Pakistan. 
They've been reduced somewhat, but it's about 50 percent of our 
logistics go through Pakistan.
    We just have to get beyond this point. We have to--and I 
think, as I said, Pakistan has to kind of declare itself a 
little bit more forcefully now as to where are you, where are 
you on this. And, let's not play both ends against the middle. 
We have a common enemy. You have a future. You have needs that 
the international community, led by the United States, could 
help satisfy. There is a brighter way, and there is a better 
way to conduct your foreign policy.
    And--but we can't make you--we can't make you do it. If 
you're not going to do it then declare it, and we'll have to 
reconsider what our strategy is. And I'm quite sure that my 
colleagues, former colleagues at the National Security Council 
are working very hard on this right now, hopeful, hopeful that 
we can find the common ground to go forward in a much more 
transactional way, but in a much more clear-cut way toward our 
common goals.
    But, I don't think we're there yet. Senator Kerry knows 
probably more than anybody else right now as a result of his 
trip, as to what that potential is. But I'm quite sure that in 
his way and in other ways we're delivering that message that 
says we can't go on like this.
    Senator Coons. You referenced----
    General Jones. No question that the Afghan struggle has 
been more difficult and longer and more costly in terms of the 
lives of our men and women in uniform and the depletion of our 
own national treasure to support that effort because of the 
fact that these safe havens and generally the Pakistani policy 
with regard to terror has been so ill-defined and imprecise.
    Senator Coons. I agree with you that the declarations you 
suggest, that could possibly be conditions for continuing with 
our strategic relationship would make good sense to me.
    General Jones. Declarations and evidence, I think, of will.
    Senator Coons. Two things, if I might. What do you think 
are the prospects that we might actually get concrete material 
on the ground assistance from the Pakistani military in taking 
actions in the FATA or North Waziristan in particular? And what 
could we be urging the Chinese to do, excuse me, the Indians to 
do to deal with, as you referenced, the near-phobic obsession 
with India? My impression was that the Indian presence in 
Afghanistan is very modest. I also heard loud and clear a 
previous panel that testified that Pakistanis are dead set 
against our succeeding in setting up a large and stable Afghan 
national military and police force.
    Our path forward toward 2014, strategic path forward, 
currently relies on standing up and sustaining a significant 
Afghan national force, which if the Pakistanis are bent on 
preventing, they can significantly interfere with our 
capabilities to succeed that.
    So, back to your point on some level, the road to success 
in Afghanistan runs right through Pakistan. And at a moment 
when my own constituents are enraged of the idea of a continued 
sustained relationship, I have to remind them, as Nick Kristoff 
commented this week in the New York Times, sort of reciting 
something Holbrook apparently scribbled down, that it--in the 
long-term, a stable Pakistan is more critical to the region and 
to the United States interests, like it or not, than a stable 
Afghanistan. What could we do with India?
    General Jones. I agree with you that the Indian presence in 
Afghanistan is modest, but from the way I've come to understand 
Pakistan's view with regard to India, one Indian would be too 
much in Afghanistan. So, there's no way to satisfy that except 
to continue to be a good interlocutor between India and 
Pakistan. As I said, I think India has done quite a bit to 
relieve the fear that there might be an Indian attack. I think 
Prime Minister Singh has been visionary and taken, as I said, 
political risk in India to do this.
    We've had some benefits in the sense that Pakistan has been 
able to take some of its forces off the Indian border and bring 
it over to the west. But, I think that if the Pakistanis can 
seize this moment and we can pivot in a new direction with more 
clarity, more precision, and more accountability, then 
something good might come of this.
    But, it's going to be difficult because they have not 
shown, despite many entreaties, both public and private, many 
trips that many of you have made to Pakistan, trips that I made 
on behalf of the President to deliver both public and private 
messages to try to get beyond this current imprecise 
relationship that oftentimes works against our own best 
interests. We just simply are at that moment where it's so 
important that we find a path, and I hope that we can.
    Senator Coons. Thank you for your lifetime of service to 
our country.
    General Jones. Thank you, sir.
    Senator Coons. And for your counsel today.
    The Chairman. Thanks, Senator Coons.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Thank you, General, good morning. Thank you for your 
service as well.
    I just wanted your observation on someone that I consider 
to be semi-well informed or well informed--I guess Thursday of 
last week, kind of shared with me and said that part of our 
frustration is how we view our relationship with Pakistan. We 
view it in terms of an alliance, a traditional alliance between 
two willing partners working toward the same goal. He 
encouraged me, and I'm not sure that I've adopted this yet, but 
he encouraged me to view it differently. He encouraged me to 
view it almost as a contractual relationship, where basically 
we put forth a set of aid packages things toward Pakistan, and 
in return they allow us to get some bad guys and not others, 
and allow us the opportunity to transit into the country to 
supply our troops, et cetera. He encouraged me to view it more 
as a transactional thing than as a traditional alliance in the 
diplomatic sense. What is your impression on that view of the 
relationship?
    General Jones. Well, I think that's fair. If you were to 
have, I think, a discussion with the Pakistani military, they 
would pivot into the direction of saying, ``Look, you say we're 
strategically important, and this is the key to kind of the 
region and what you want to do in Afghanistan. But in terms of 
the quantity of military aid that we've received, helicopters 
and,'' the instruments that they feel that they're in short 
supply of, that we haven't done much. And, so they take the 
numbers that we think are relatively significant, roughly a $4 
billion package, and they say, ``Now for a strategic 
relationship, it's worth a lot more than that, and we need that 
kind of help. We cannot fight the insurgents if we don't have 
the mobility to transport our troops and to move our troops 
around rapidly, and we don't have it.''
    You know, we provided them with MI-28 helicopters, you 
know, double digits, I think it was 28 or so, 30, but that's 
about it. And from their standpoint, given some of our support 
packages that we give to other countries around the world, they 
don't think that that measures up to a strategic, you know, the 
strategic imperative that we attach to the relationship.
    So, you know, there may be a way to get through that, but 
it's a stumbling point. They obviously chafe at being held to 
certain conditions for our financial aid, and they wrap 
themselves in the cloak of sovereignty. Those are things that 
we're just going to have to work through, but it's too 
important, I think, to not give it a real good shot.
    Senator Rubio. So, in your perception of it, in your well-
informed perception of it, there's some credibility to the idea 
that there's a price for each level of assistance that they 
give us. That, in essence, if we give them this much, they'll 
help us this much. If we give them a little more, they'll help 
us a little more, the way you would normally enter into some 
sort of contractual bargain with someone. I mean, I think 
there's some credibility to that view of it?
    General Jones. There might be, but one of the problems with 
dealing with Pakistan is that there is a--people, the American 
people, correctly, want to know that that money is going to the 
right end. And, there are problems with making sure that it 
doesn't get diverted to other, you know, other means.
    For example, if we give them military aid and some of that 
military aid shows up on the India/Pakistan border, that 
excites India and then we have to, you know, we have to figure 
out exactly how that happened because it was supposed to go to, 
you know, the western side of the country as opposed to the 
eastern side.
    But, I think in the next few weeks, what happens in the 
next few weeks or maybe a couple months, in terms of redefining 
the relationship and having a clear-eyed transactional, to use 
your term, discussion as to what it is that we need to do to 
get this relationship back on track, if we can, and why it's in 
Pakistan's long-term benefit to do so.
    Senator Rubio. And just to be clear, I'm not suggesting 
that we should give them more money in exchange for more help. 
I'm just trying to understand the relationship a little better.
    The other question that I had, because if you've noticed 
it's tough to explain to people some of this.
    General Jones. Sure.
    Senator Rubio. If you go back home--I was with people 
yesterday and they want to know why we're spending so much 
money on a place that says these things about us and so forth. 
So, that's hard. And on the other hand, the pragmatic realities 
of what's happening on the ground--is there any--I think the 
answer is going to be no, because nothing is simple around 
here--but is there any simple way to understand why it is they 
help us with some things and not help us with others? Is there 
any simple way to understand the decisionmaking matrix of how 
one day they're our best friend on some issue and the next day 
it's like we have to fight them as well? I mean, is there any 
simple way to understand that or is it as complicated as 
everything else I've found around here in the last 4\1/2\ 
months?
    General Jones. The answer is no, but the answer I've heard 
coming from them, to that very question, which I posed several 
times, is that they will cite history as the example, that 
they're fearful of and they're fearful of, they say, they're 
fearful of the fact that we will once again leave and their 
relations with India will be whatever they are, but then they 
also have their Afghan border and the Taliban problem and a 
growing problem in their own country to have to deal with.
    And so, for whatever reason, we have not made the case with 
them, that they believe that we are long-term strategic 
partners. And, in their calculus, when we advance 2014 as a 
date for our transition in Afghanistan, they click onto that 
and say, ``Well, this is the day where--that's when the United 
States is going to leave and now we're going to have to deal 
with everything ourselves.''
    Senator Rubio. So----
    General Jones. I think it's really that simple. I mean, 
it's to convince them that a long-term strategic partnership 
means what it is, means--and it goes beyond 2014, than the 
country next door. But, whatever it is that we have to do to 
kind of get through to that, the almost psychological block, 
for them to accept that, is really the challenge.
    Senator Rubio. So you're saying that some of these debates 
that we're having, and rightfully so in this country about what 
our role is in Afghanistan, what our goals are, how long we're 
going to be there, how committed we are to achieving whatever 
that goal may be, that that debate, that concern about 
America's commitment to seeing the Afghanistan effort through 
to some level of completion complicates the relationship with 
Pakistan, according to them.
    General Jones. According to them, I don't believe that they 
buy into the idea that--by a long-term strategic relationship, 
we're interested in anything beyond 2014.
    Senator Rubio. So, just to close, my last question. It is 
your opinion that if the United States were to somehow convince 
them and the world that we are fully committed to the idea of a 
stable Afghan Government and that we're willing to see that 
through, even though we recognize it should take us a 
significant amount of time, and unfortunately already has taken 
lives and American treasure, that that could potentially 
improve our bargaining hand with regards to the Pakistani 
relationship?
    General Jones. Well, I think so. The problem is that we've 
really exhausted the vocabulary in the last 2 years to try to 
make that point. It doesn't mean we shouldn't keep trying, but 
I actually thought a couple years ago that with this level of 
dialogue, much more comprehensive than just, you know, beans, 
bullets, and bandages for the military, but a much more 
comprehensive and robust relationship, that they would 
gravitate toward that. But so far they have not done so.
    Senator Lugar [presiding]. Thank you, Senator Rubio.
    Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman. Thanks, 
General Jones, for your service and for being here today.
    I have a very deep concern that I voiced well before the 
bin Laden incident, in terms of what the Pakistanis know or do 
not know. The last time we considered coalition support funds I 
joined Senator Corker in seeking benchmarks along the way to 
make sure that we were getting responses to the significant 
commitments we were making to Pakistan in assistance.
    In the last 5 years, the United States has dramatically 
increased security assistance and reimbursements to Pakistan--
which is currently our third-largest aid recipient after 
Afghanistan and Israel--increased by 140 percent since 2007 to 
$2.7 billion in FY10.
    Those numbers are staggering. At a time when we are 
contemplating cutbacks to foreign assistance programs and 
scrutinizing every domestic program to ensure maximum 
effectiveness, isn't it somewhat incongruous to be providing 
enormous sums to the Pakistani military unless we are certain 
that it's meeting its commitment to locate, disrupt, and 
dismantle terrorist threats inside its borders? I think the 
answer to that is probably yes, but then the question is, do 
you believe that the Pakistani military is committed--not just 
in word, but in deed, as well as with its intelligence 
entities--to cease supporting extremist and terrorist groups, 
and taking it to al-Qaeda and the Taliban?
    General Jones. Yes, I think it--but it has shown itself to 
be a selective engagement. They almost waiting too long a few 
years ago in the Swat Valley and in South Waziristan, and if 
they had not interfered, or intervened the way they did, they 
could be having problems in Islamabad right now.
    So, there's a lot of internal difficulties in that 
country--political and otherwise--that causes them to pick and 
choose their engagement, which frustrates us. I mean, it 
frustrates us because it exacerbates their problems with India, 
it exacerbates our problems with Afghanistan, and we like 
clarity, we like precision, and we like to know exactly where 
they are in relation to our common goals.
    You can have a discussion with them and they'll say, ``Of 
course we reject terrorism, we completely reject terrorism.'' 
Well, and then the next question is, ``Well, what are you doing 
about it?'' And they'll say, ``We're doing the best we can 
within our limitations and means and capabilities. And if you 
would help us more with mobility and things like that for our 
army, we could do more.''
    So, I think those kinds of discussions will probably be 
much more pointed in the next few weeks and as we try to sort 
out the future path of this relationship. And I hope that we 
can make the case to--that our initial offers two years ago are 
still viable. But it's going to take a demonstration on their 
part that they really see things the same way we do and are 
willing to----
    Senator Menendez. Selective engagement makes me think about 
selective assistance. I don't buy into selective engagement 
because, then it's about picking and choosing as you think your 
interests----
    General Jones. Exactly.
    Senator Menendez [continuing]. I.e., Pakistani interests.
    General Jones. Exactly.
    Senator Menendez. And, unless we are in it together----
    General Jones. Yes.
    Senator Menendez [continuing]. And in common cause 
together, and agree on the goals and the methods to achieve 
those goals, then I don't know that as a fiduciary to the U.S. 
taxpayer, as well as our national security interests, nearly $3 
billion of assistance----
    General Jones. Correct.
    Senator Menendez [continuing]. Can be given just on the 
basis of selective choices.
    General Jones [continuing]. Correct. No, ----
    Senator Menendez. Do we not have benchmarks, General? Some 
way that we can ultimately get a concrete sense such as ``You 
meet this goal, so much of the faucet opens. You meet the next 
goal, that's how much the faucet opens?''
    It seems to me that there are tangible ways in which we 
ultimately----
    General Jones. Unfortunately, it's not a precise science in 
the sense that if you give them X they will do Y. But, we know, 
you know, what they're doing and what they're not doing in 
terms of combating safe havens and moving against terrorist 
organizations.
    We've had a very, I think, generally productive 
relationship at certain levels against certain organizations, 
and targets, but the problem has been that there are certain 
things that they are willing to do and certain things that 
they're not willing to do.
    But, I think some clarity in a restated kind of mission 
statement, if you will, or an agreement between us, as to what 
it is that we are talking about is probably in order and 
probably what the administration is working on right now to try 
to figure out, how do we get to that level of understanding and 
comprehension in the shortest time possible.
    Senator Menendez. Are we in a position to really press the 
Pakistanis in a way that would pursue our national security 
interests when they are our supply route into Afghanistan?
    General Jones. We all have leverage points, this is 
certainly one. If the Pakistanis wanted to conclude that we can 
squeeze the United States in Afghanistan by cutting off the 
supply routes where 50 percent of our logistics still flow, I 
would argue that that would be a very short-term, maybe, feel-
good tactic, but in the long term it would be to the great 
disadvantage of Pakistan's national security. Pakistan will 
benefit by having as stable a country next to them in 
Afghanistan as we can deliver. And it's in their interests, it 
seems to me, to do whatever they can between now and then, to 
demonstrate that they are, in fact, a capable ally and willing 
to do those things that they can do--understand they can't do 
everything--but just an incremental demonstration that they are 
willing to do these things that would help us immeasurably, 
will be very clear. And might generate more goodwill over here 
and in different parts of the world, and we would then be more 
willing to do the other things that they need in terms of 
turning their economy around and making better lives for the 
Pakistani people in the future.
    Senator Menendez. Thank you.
    Senator Lugar. Well, thank you very much, Senator Menendez.
    Senator Lee.
    Senator Lee. Thank you, Senator Lugar.
    At the outset, I'd like to say that I would appreciate the 
kind of briefing that Senator Kerry alluded to, I would 
appreciate hearing from him regarding his trip; I think it 
would be very helpful.
    And thank you, General Jones, both for your service to this 
country and for your testimony here in front of this hearing.
    Pakistan's influence on the fight against terrorism, its 
role in the region generally, its nuclear weapons capabilities, 
and various other factors make it an important, and a volatile, 
factor in U.S. national security. I've gone on record to 
request that the administration provide us with additional 
witnesses and information as we hold this series of hearings on 
Afghanistan and Pakistan. I realize that a few months ago, you 
retired as President Obama's National Security Advisor, but I 
appreciate your deep insights into the situation in Pakistan.
    I desperately want to believe that the Pakistani Government 
is genuine in its desire to be an ally of the United States, 
but it seems that within that government, we don't know what we 
don't know about Pakistan's commitment to fighting terrorism 
and fully engaging as our ally. It seems somewhat implausible 
that nobody within the Pakistani Government knew anything about 
bin Laden's presence within its borders.
    But, with all that in mind, Pakistan is certainly among the 
world's leading recipients in U.S. aid. Specifically, by the 
end of 2010, fiscal year 2010, over the last decade, it had 
obtained about $20.7 billion, and I want to be clear about how 
I calculate that number; that includes both overt assistance 
and military reimbursements, between 2001 and the end of fiscal 
year 2010.
    I wanted to know, is that aid performance based in any way? 
Is it tied to any performance-based conditions?
    General Jones. Well, the Kerry-Lugar-Berman package did 
have performance metrics in relation to the disbursement of 
moneys, as Senator Lugar alluded to earlier. So, yes, I think 
there are some aspects of it that are performance based.
    Senator Lee. In what ways do you think Pakistan has used 
that aid to do things that have enhanced U.S. national 
security?
    General Jones. Well, we've had a steady working 
relationship and dialogue with both the civilian and military 
side of their government. We have benefited from intelligence 
exchanges, that has enabled them to make some arrests that has 
enabled us to pull off some operational successes that were in 
our national interests.
    Senator Lee. And those, I assume, are arrests and 
operations that would not have occurred without that aid?
    General Jones. Exactly.
    We have been able to form a military outpost in different 
parts of the border, between Afghanistan and Pakistan where 
high-technology surveillance and real-time intelligence can be 
derived with both Afghans, the Pakistanis and the United States 
sitting side by side. That would be another illustration of 
productive use of our aid.
    And we have helped--we've tried to help them with some of 
their logistical problems in supporting the army with some 
mobility assets that help them be able to move their troops 
around as they need to, but--so those kind of things I think 
have been positive.
    Senator Lee. Let me ask you a hypothetical question. What 
would be the effect of temporarily withholding additional aid 
to Pakistan? I want to emphasize the hypothetical nature of 
this question; I'm not necessarily proposing this for purposes 
of our discussion. I'd like to know what the consequence would 
be. For example, could the administration put a 30- to 60-day 
hold on further aid to Pakistan while we sort out Pakistan's 
commitment to United States national security interests?
    General Jones. I don't think that anything positive would 
come as a result of that. It may happen, I suppose, as a 
consequence. But I would think that before we decide what to do 
in the immediate future, rather than take a decision like that, 
that would have pretty clear consequences in terms of bilateral 
reaction, that it would be better to go through the process 
that I think we're going to go through of trying to see where 
this relation is and what it is that needs to be adjusted to 
better communicate the long-term potential that exists here, 
for our benefit and for the benefit of Pakistan.
    So, I would counsel against what might be a tempting thing 
to do, but might have long-term consequences that we would then 
have to deal with.
    Senator Lee. On a different note, Chinese investment in 
Pakistan has become something of a recurring theme in our 
discussions in this area. As you know, China is apparently 
planning to build two new civilian nuclear reactors in 
Pakistan. Does this kind of investment by China in Pakistan 
trouble you from a national security standpoint?
    General Jones. I think that the growing bilateral 
relationship that we have with China and other countries can be 
put to good use, in terms of helping countries like Pakistan 
and other countries, and I believe that it is a characteristic 
of our 21st century, that we will have to do more along those 
lines of working with the wealthier nations to help the 
developing nations transition to better economies, better 
governance, more adherence to rule of law and the security 
assistance where that's required.
    So, I think that flows with the nature of our new world, so 
to speak, our 21st century world. And so, you know, I think 
that if China continues to demonstrate that it is, in fact, 
more with us in these types of issues, then I think that's a 
good thing.
    Senator Lee. Thank you very much.
    General Jones. Thank you.
    Senator Lee. Thank you, Chair.
    The Chairman [presiding]. Well, thank you very much, 
Senator Lee, and General Jones.
    Senator Lee, I might say to you and to others who are not 
here now, this is a very important conversation that we're 
having, and I'm going to make the transcript of this hearing 
available to Pakistani officials. I think they really need to 
understand even further--look, I just spent 2 long days going 
through every single one of these very same questions and 
laying out the realities.
    It's not simple. Fifty percent of the supplies that go to 
our efforts in Afghanistan go through Pakistan.
    General Jones with confirm with me that the most 
significant debilitation of al-Qaeda has occurred, really, in 
the past 2 years. And it has occurred because of some of the 
things that we've been permitted to do in the western part of 
Pakistan, at their sufferance, I might add, because they've 
taken real political hits for allowing us to do it.
    That's accurate, is it not, General?
    General Jones. That's correct.
    The Chairman. And in addition to that, the Pakistani 
military invaded Swat Valley, they've invaded Waziristan, 
they've gone out into Pajarah, they've taken 5,000 casualties. 
They have lost more military troops than we have, and they've 
killed probably 1,000 al-Qaeda fighters in that effort.
    Are we getting them to do everything we've wanted? No, it's 
not a perfect situation, at all. And that's exactly the 
conversation that we engaged in. But from their point of view, 
they've asked for some helicopters, they've asked for some 
additional aid, they've asked for additional capacity, they're 
under very tough IMF constraints which have required them to 
raise prices, their politics are complicated. So, we have to 
look at this thing in its totality. Should we expect more? 
Absolutely. Is it tolerable that some of these insurgent 
entities are sitting there on the ground, and there isn't a 
full measure of effort against them? No, it's not. That's 
exactly the conversation that we're engaged in now.
    And I expect the administration, in the next days, to be 
pressing the details of that, building on what we've created as 
an outline in the last few days, and I think we can get 
somewhere.
    Now, the proof is in the pudding. I've made it very, very 
clear. This is no longer a time for joint statements issued, 
and everybody goes about their way followed by 4 more weeks of 
delay. We can't afford that. But they can't afford it, either. 
And I think that's the understanding everybody's arrived at.
    I think the important thing here, and I think, General, you 
would agree with me, is to get deeply engaged in this current 
moment of dialogue with great precision, with great intensity, 
and see where we come out. And then we have to make some 
judgments.
    But, let's say the relationship with Pakistan goes to hell 
in a hand basket completely, where there isn't any cooperation, 
we're not moving those goods, and we have to find other ways of 
doing things. The United States of America will protect its 
interests. I think you would agree, we will do what we need to 
do. But, would there not be greater risks of increased terror 
as a base in that region, and of greater volatility with 
respect to India, and the potential, even, of ultimately 
greater costs to the United States in terms of strategic 
interests that we then need to protect in other ways?
    General Jones. Absolutely.
    The Chairman. And it would be a lot more expensive for us, 
wouldn't it?
    General Jones. Absolutely.
    The Chairman. So, I think we have to come through this 
carefully. But, I'm hopeful in the next days, a lot of this can 
get appropriately adjudicated in the negotiating process.
    Senator Lugar, do you have any more things you want to go 
into?
    [No response.]
    The Chairman. General, do you want to do any sort of 
summary wrapup?
    General Jones. Thank you, sir. Pleasure to be here.
    The Chairman. Is it easier to testify now that you're out 
in the government? Well, you didn't have to testify when you 
were at the NSC.
    General Jones. That's true, that's true.
    The Chairman. But you were liberated from that----
    General Jones. That's true.
    The Chairman [continuing]. Executive privilege. Anyway.
    General Jones. It's a pleasure to be here, Mr. Chair.
    The Chairman. Well, we're very, very happy to welcome you 
back. I want to thank you personally for the work that you're 
continuing to do and the many relationships that you have that 
benefit us enormously. And we're very, very grateful to you. 
Thank you so much.
    General Jones. Thank you, sir.
    The Chairman. We stand adjourned.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
